r
658 La.

942 SOUTHERN REPORTER, 2d SERIES

tween Davis and the state as to the actual (2) sentence of 10 years at hard labor for
sentence, which the state indicated at the
aggravated battery conviction was not
time would be left to the trial court.
excessive.
Davis, who agreed to this at the time the Affirmed,
plea was entered, cannot now allege there
was a sentencing agreement that demands
specific performance. The trial judge was 1. Homicide <£=1146
well within his sentencing discretion, and
Sufficient evidence supported convicthus, this sentence should not be disturbed tion for second degree murder; testimony
by this court. This assignment is without of witnessed indicated that defendant was
merit.
not provoked by anyone into committing
crimes, witnesses all indicated that defen­
Conclusion
dant was confronted about his behavior
For the foregoing reasons, Delandro and was asked to leave, that victim did not
Chamicheal Davis’ conviction and Sentence agree to leave with defendant, who was
are affirmed.
her husband, that defendant was aggres­
sor, and that actions of others present
AFFIRMED.
were defensive, defendant himself admit­
ted to becoming excited and loud while
Jw\________w
Co I KY NUMBER SYSTEM >
talking to victim, and there was no dispute
| ■r*V*-w'-VN^V
that defendant had armed himself with
knife before going to see victim. LSAR.S. 14:30.1.
41,420 (La.App. 2 Cir. 11/1/06)
STATE of Louisiana, Appellee,
v.
Richard B. WOODS, Appellant.
No. 41,420-KA.
Court of Appeal of Louisiana,
Second Circuit.
Nov. 1, 2006.
Background: Defendant was convicted by
jury in the Fourth Judicial District Court,
Parish of Ouachita, No. 04F2043, Carl Van
Sharp, J., of second degree murder, aggra­
vated battery, and attempted manslaugh­
ter. Defendant appealed.
Holdings: The Court of Appeal, Stewart,
J., held that:
(1) sufficient evidence supported convic­
tion for second degree murder, and

2. Criminal Law <3=20, 312
Specific intent is a state of mind and
need not be proved as a fact; it may be
inferred from the circumstances of the
transaction and the actions of the defen­
dant. LSA-R.S. 14:10(1).
3. Criminal Law <£=738
Determination of whether requisite in­
tent is present in a criminal case is for the
trier of fact, LSA-R.S. 14:10(1).
4. Criminal Law <£=1144.13(3), 1159.5
In reviewing the correctness of a de­
termination of whether the requisite intent
is present in a criminal case, the court
should review the evidence in the light
most favorable to the prosecution and
must determine whether the evidence is
sufficient to convince a reasonable trier of
fact of the guilt of the defendant beyond a
reasonable doubt as to every element of
the offense.

Appendix A, 1a

r

r

STATE v. WOODS
Cite as 942 So.2d 658 (La.App. 2 Cir. 2006)

5. Assault and Battery <$=100
Sentencing and Punishment ©=66, 90
Sentence of 10 years at hard labor
imposed on defendant convicted of aggravated battery was not excessive; trial
judge considered defendant’s criminal his­
tory, his alcohol and drug problems, and
letters submitted on defendant’s behalf,
defendant initially was charged with at­
tempted second degree murder of victim,
but jury returned verdict of aggravated
battery instead, and aggravated battery
fell within category of worst offenses since
it was part of criminal incident in which
another individual was murdered and a
third nearly died. LSA-R.S. 14:34; LSAC.Cr.P. art. 894.1.

La. 659

are the defendant’s personal history, such
as age. family ties, marital status, health,
employment record, prior criminal record,
seriousness of offense and the likelihood of
rehabilitation. LSA-C.Cr.P. art. 894.1.
10. Sentencing and Punishment ©=’1439,
1482
A sentence violates the state constitubon if if is grossly out of proportion to the
seriousness of the offense or nothing more
than a purposeless and needless infliction
of pain and suffering. LSA-Const. Art. 1,
§ 20.
11. Sentencing and Punishment <£=1482

A sentence is considered grossly dis­
proportionate if, when the crime and pun­
6. Sentencing and Punishment <$=373
ishment are viewed in light of the harm
A trial judge is not required to list
done to society, it shocks the sense of
every aggravating or mitigating circum­
justice. LSA-Const. Art. 1, § 20.
stance so long as the record reflects that
he adequately considered the guidelines of 12. Sentencing and Punishment <£=35
the article in the Code of Criminal ProceA trial court has broad discretion to
dure. LSA-C.Cr.P. art. 894.1.
sentence within the statutory limits.
7. Sentencing and Punishment <£=371
Articulation of the factual basis for a 13. Criminal Law <$=1147
Absent a shoving of manifest abuse of
sentence is the goal of article in the Code
of Criminal Procedure regarding sentenc- discretion, an appellate court may not set
ing guidelines, not rigid or mechanical aside a sentence as excessive. LSAcompliance with its provisions. LSA- Const. Art. 1, § 20.
C.Cr.P. art, 894.1.
14. Sentencing and Punishment <$=66, 90
8. Criminal Law <£=llSl.5(8)
As a general rule, maximum or near
Sentencing and Punishment <$=373
maximum sentences are reserved for the
Where the record clearly shows an worst offenders and the worst offenses.
adequate factual basis for the sentence
imposed, remand is unnecessary in an ap­
peal of a sentence even where there has
not been full compliance with article in the
Code of Criminal Procedure regarding
Louisiana Appellate Project by Sherry
sentencing guidelines. LSA-C.Cr.P. art. Watters, Carey J. Ellis III, Richard B.
894.1.
Woods, for Appellant.
9. Sentencing and Punishment <$=66, 90
Important elements which should be
considered when sentencing a defendant

Jerry L. Jones, District Attorney, Geary
S. Aycock, Assistant District Attorney, for
Appellee.

Appendix A, 2a

r
660 La.

r

942 SOUTHERN REPORTER, 2d SERIES

Before STEWART, CARAWAY and
LOLLEY, JJ.
STEWART, J.

issue in this case as to whether Mr. Sulli­
van was supplying drugs to Julie and al­
lowing others to use his property for drug
use, or whether Mr. Sullivan was simply
living in a bad neighborhood and trying to
help Julie. However, there is no dispute
that Richard Woods was not happy about
bis wife staying at Sullivan’s house and
Wanted her to live with him in the trailer.
As a result, he went Sullivan’s house on
numerous occasions to try to persuade his
wife to return home. These disputes set
the backdrop for the violent events of July
30, 2004, in which Richard Woods mur­
dered his wife by cutting and stabbing her,
and severely injured Keith Wyman and
James Sullivan with the same knife.
Witnesses for the Prosecution

_J^The defendant, Richard B. Woods, was
convicted of the second degree murder of
Julie Woods, aggravated battery of Keith
Wyman, and attempted manslaughter of
James Sullivan. He was sentenced to life
imprisonment without benefit of probation,
parole, or suspension of sentence on the
conviction for second degree murder. He
was sentenced to serve 10 years at hard
labor on the conviction for aggravated bat­
tery and 12 years at bard labor on the
conviction for attempted manslaughter.
The sentences were ordered to run concur­
rently. A motion to reconsider was de­
nied, and this appeal followed. For the
reasons set forth below, we affirm the
The first witness to testify for the prose­
defendants’ convictions and sentences.
cution was Sgt. Ricky Bade of the Ouachi­
ta Parish Sheriffs Office (OPSO). Sgt.
FACTS
Bade testified that on July 30, 2004, he
Richard and Julie Woods were husband received a report of a stabbing in progress
and wife. Richard Woods, who had alcohol on Bailey Street and that the suspect was
and drug problems before meeting Julie,
a white male wearing a red t-shirt and
went through rehabilitation and then
blue jeans, heading toward a Spirit gas
moved to West Monroe, Louisiana where station. When Sgt. Bade arrived in the
he met Julie, who had recently completed
area, Richard Woods exited the Spirit ser­
treatment for substance abuse. The cou­
vice station and said, “I guess you’re look­
ple moved into a trailer that belonged to
ing for me." Woods then showed Bade
Julie’s mother, Aleda Johnson. Their rela­
where he had left the knife in a nearby
tionship was troubled, and Julie often
field,
stayed several days out of the week in the
nearby home of James Sullivan who was a
The next witness was Gpl. Sams also of
longtime friend of Julie and her family. OPSO. Like Sgt. Bade, Cpl. Sams indicat­
Mr. Sullivan, who was 70 years old, had ed that he had taken a call regarding a
taken Julie to receive treatment for her stabbing on Bailey Street and that the
substance abuse. Mr. Sullivan’s house was suspect allegedly was enroute to the Spirit
located across the field from Mike’s Cabi­ gas station there. Because two units were
net Shop where Richard worked. An already at the station when he arrived,
abandoned mechanic shop was on the Sams went to Bailey Street where he was
property adjoining Mr. Sullivan’s home, met by Keith Wyman, who was holding a
and there was a lot of drug activity in the towel ^on the side of his face and hysteri­
area. Julie Suffered a relapse, and her cally screaming that lie and some other
drug problems recurred. As will be dis­ people had been stabbed. Cpl. Sams stat­
cussed more fully 12below, there is a factual ed that Wyman’s knife wound appeared to

Appendix A, 3a

r

r

STATE v. WOODS
cue as 942 So.2d 658 (La.App. 2 Cir. 2006)

go all the way through the side of his face
into the inside of his mouth. Gpl. Sams
also observed two subjects lying on the
porch of the residence. The subjects were
Julie Woods and James Sullivan, who were
‘‘pretty much covered in blood from head
to toe.”
Jim Gregory, a captain at the OPSO,
also testified. His testimony was used to
introduce into evidence the knife used to
commit the murder. He testified as to the
appearance of the Sullivan house after the
murder took place as depicted in trial pho­
tographs. He also testified to finding
some crack pipes in the house; the pipes
were located under some carpet in a bed­
room in the middle of the house.
Julie Woods’ mother, Aleda Johnson,
was the next witness to testify. She indi­
cated that she had told them if there was
going to be any fussing and fighting "they
could take it somewhere else,” She noted
that Richard Woods worked at Mike’s
Cabinet Shop when Richard and Julie
moved into the trailer on her property.
She also testified that she has known Mr.
James Sullivan ever since they were in
grade school, and that he lived on Bailey
Street only about a mile and a half from
her home. According to Ms. Johnson,
their families had been friends for many
years and he was like a "godfather” to her
children. In the week before the murder,
Ms. Johnson indicated that Julie had
stayed at Mr. Sullivan’s house for a couple
of days, and that Julie normally went there
when she and “Ricky” would "get into a
fuss." The day before the murder, Woods
came to Johnson’s house and got Uhls
clothes out of the trailer indicating that if
Julie was not going to stay there, he was
not going to stay there. Johnson also saw
Richard Woods at Mike’s Cabinet Shop on
the day of the murder where he had asked
her if she wanted to buy a DVD player
from him for $10.00.

La. 661

One of the more significant witnesses in
the case was Dr. Frank Peretti, a forensic
pathologist who testified concerning the
wounds inflicted on Julie Woods. He be­
gan his description of those wounds start­
ing at the top of her head and working
downward. He stated that the wounds
were caused by a knife, indicating that
while all the wounds contributed to death
by blood loss, there was one wound more
fatal than the others. That wound was
behind Julie Woods' left knee. It was a
stab wound measuring two and a half
inches in length that went through the
skin, the underlying tissues, muscles, ten­
dons, and completely cut the left popliteal
artery and vein, ultimately causing Julie
Woods to exsanguinate. The wound was
two and three quarters inches deep.
There also was an irregular jagged cutting
wound on her left leg that indicated she
was moving and twisting, attempting to
get away from the person inflicting the
wound on her. Some of the wounds he
described as being defensive wounds. He
also stated that there was cocaine in Julie
Woods’ bodily fluids indicating that she
had consumed cocaine within a 24-hour
period prior to her death. Dr. Peretti
stated that Julie Woods had 15 cuts and 1
stab wound, and he reiterated that she had
what he called defensive wounds on her
arms. He opined, based on his experience,
that the type of injuries sustained were not
accidentally sustained.
lsThe next prosecution witness was
Keith Wyman. Mr. Wyman was the boy­
friend of Rhonda Allbritton, who at one
time had been married to Mr. Sullivan’s
son, Wyman and Allbritton were visiting
Sullivan’s house at the time of the murder.
According to Wyman, he and Allbritton
had only been at Sullivan’s house for a few
minutes before the incident occurred. He
met Julie Woods for the first time there,
and nobody else was at the house besides

Appendix A, 4a

s'

(

662 La.

942 SOUTHERN REPORTER, 2d SERIES

Mr. Sullivan and Julie Woods when they
arrived. Richard Woods knocked on the
door while they were there, wanting to
talk to Julie. After consulting with Julie,
Mr. Sullivan told Woods that she did not
want to talk to him and that he should
come back later. However, Woods came
into the house anyway. Mr. Sullivan then
indicated to Woods that he should leave,
Woods became upset, and Wyman could
tell “by the look in the eyes” that Woods
was going to jump on Mr. Sullivan. Wyman stepped between Sullivan and Woods,
and pushed Sullivan back with his arms.
He was then cut on his face by Woods.
According to Wyman, he did not know that
Woods had a weapon until that point. The
Wound requited 79 stitches to close.
Sullivan told Julie to run, Rhonda ran
to the backdoor but could not get the door
to open, so Wyman kicked the door open
and Rhonda ran out. At this point, Wyman turned around and saw' Mr. Sullivan
fall to his knees in the living room and saw
Woods walking into the bedroom where
Julie had gone. Wyman went to the ldtchen to look for something he could use to
arm himself and found a frying pan and a
bow saw. When he turned around, he saw
Woods "just slashing on Ms. Woods, hoilering you know I |nlove you, you don’t
understand I love....” Wyman then ran
after Woods who ran out of the house.
Although Wyman caught up with Woods
who had tripped and fallen in a ditch,
Wyman did not attack Woods because
Rhonda had screamed out to him. In­
stead, Wyman returned to the house
where Sullivan and Julie Woods had man­
aged to get to the front porch. Wyman
tried to help the two who were bleeding,
but Wyman testified that he realised
Woods was dying and there was nothing
more he could do.
Wyman admitted that he had a criminal
history including convictions for simple

burglary, second degree battery, simple
kidnapping, and forgery. He also indicted
that he was currently awaiting trial on a
drug charge. However, he denied supplying Julie with drugs and indicated he had
never sold drugs in his life. He also denied that he or Rhonda was using drugs
that day.
Rhonda Allbritton was the next prosecu­
tion witness. Her version of the events
surrounding the murder largely corroborated that of Wyman. She testified that
no one besides Woods had a weapon at the
time Woods pulled out the knife, that she
did not see anyone jump on Woods before
he pulled out the knife, and that no one
was threatening Woods. She testified that
Julie was not aggressive toward Richard
Woods at the time, that Sullivan had no
weapons that she saw', and that he did not
attack Richard Woods in any way. She
denied knowing that there were any drugs
being used at the house when she was
there, but she admitted to being convicted
of a marijuana charge in the '80’s and to
having a shoplifting charge. She also admitted to having pending charges for simpie possession and 17paraphernalia. All­
britton saw Wyman and Sullivan get cut,
but she did not see what happened to
Julie,
Allbritton testified that she knew Julie
stayed in the bedroom in Sullivan’s house,
and that the room was “kind of like a rent
room where others had stayed.” She indi­
cated that a Bobby Taylor and a Mike
Davis had stayed there before, but she
denied lenowing that the room w’as known
as the crack room or that people would go
there to smoke crack. However, she ad­
mitted that she had smoked crack “once or
twice” before. According to Allbritton,
she had never met Richard Woods before
that day, but had met Julie a few times at
Sullivan’s house. Although she admitted
that she did not go from room to room in

Appendix A, 5a

(

STATE v. WOODS
Cite as 942 So.2d 658 (La.App. 2 Cir. 2006)

La. Q63

the house that day, she did not think any­ talked, Richard Woods arrived. Sullivan
one else was in the back part of the house. again told Woods that Julie did not want to
The last witness for the prosecution was talk to him, and Sullivan did not invite him
James Sullivan, who testified that he had in. Sullivan tried to convince Woods to
know) Richard Woods for about a year- or leave, but Woods forced his way into the
better, and that he had been knowing Ale- home. According to Sullivan, he asked
da Johnson ever since she was seven or Woods about four or five times to get out
eight years old. He also knew all of John­ of the house, and Allbritton and Wyman
son’s children. He also indicated that also told Woods he should leave. When
Rhonda AJlbritton had been married to his Wyman started to get up, Woods pulled a
son who had passed away, and that she knife out of his shirt and struck Wyman
came to visit him periodically. With re­ across the face. When Sullivan told All­
spect to Julie Woods, he stated that he britton to run out of the house, he was
was aware she had a substance abuse struck by the knife in the area near his
problem and that he had tried to help her collarbone. Sullivan threw up his arms
by taking her for treatment to Alexandria, and was struck about three more times.
Louisiana where there was a substance Sullivan saw Woods strike Julie a couple of
abuse treatment center. He indicated that times before he fled outside to cry for
there were occasions after she married help. Sullivan could hear Julie hollering,
Richard Woods that she would come and but he could not tell what she said because
stay at his house, and that she had been he was in poor ^condition himself. Sulli­
there off and on for over two years. He van indicated that before Woods pulled the
indicated that he had allowed Bobby Tay­ knife out, he did not know there was going
lor to stay at his house when |sTayIor had to be an attack on him or any of the other
no place to stay, but he denied allowing people.
people to consume drugs in his house, and
Lastly, Sullivan denied allowing Julie or
he denied selling drugs. He also indicated
that before the day of his testimony he others to use his house to smoke crack,
was unaware that the police had found and testified that he did not use drugs,
crack pipes in the back bedroom under the drink, or smoke. He also indicated that he
carpet. Sullivan also indicated that when had no criminal record. On cross exami­
Julie was staying at his house, Richard nation, Sullivan admitted that Julie came
Woods would come down to see her and to his house regularly to stay Thursday
that he had asked Woods to leave because through Sunday, and sometimes longer.
Julie did not want to have anything to do He did not think it strange that she came
with him.
to his house “because she would show' me
Sullivan stated that on the day of the bruises and everything where he had
murder Woods had come to his house jumped onto her.” He indicated that
around 9.00 a.m. to talk to Julie, but Julie there was a shop next to his house where
did not want to talk to him, so he asked people hung around and that there could
Woods to leave. Rhonda Allbritton and have been illegal activity going on, but he
Keith Wyman came to Sullivan’s house did not “meddle in nobody’s business.”
around 10:30 a.m. Sullivan was in the Sullivan admitted to threatening Woods
kitchen cooking some peas and a duck. with his machete after he caught him in
When they arrived, the only people in the his backyard a couple of months before the
house were Sullivan and Julie, and as they incident.

Appendix A, 6a
l

r
664 Da.

r

942 SOUTHERN REPORTER, 2d SERIES

Witnesses for the Defense
had gone to rehabilitation prior to moving
The first witness for the defense was back to West Monroe. According to
Mike Garrett, the owner of the cabinet Woods, Julie frequently stayed at Sullishop and the employer of Richard Woods. van’s house after their marriage until
Garrett said that Julie usually came to the Woods had rented a trailer. However,
cabinet shop every Friday, and that Fri- Julie still returned to Sullivan's house just
day was Woods’ payday. Garrett said that about every weekend. Woods stated that
he was familiar with the fact that Julie he had confronted Sullivan many times
would spend days at Sullivan's house, and asking, “why do you just keep giving her
Garrett stated that people were hanging the dope and letting her in your house,
around Sullivan’s house all the time. Gar- why don’t you just turn her away.”
rett indicated that on the morning of the Woods also stated that helnhad seen Sullimurder, he saw Woods near the home of van buy dope for Julie, and that there
Garrett’s daughter who lived near Sullivan, were people around Sullivan’s house all the
linGarrett further stated that Woods had ^me us*n£ drugs. He claimed that Julie’s
walked up to his truck and told him that drug problems caused him serious financial
the men he had been talking to had a gun, problems,
that they wanted money for crack, and
Woods’ testimony about events leading
that if Woods did not have the money by to his going to Sullivan’s house on the day
noon they were going to shoot him. Gar- of the murder essentially matched those of
rett then went to his shop, made out the Garrett. Woods indicated that the three
payroll, and later paid Woods who left black men who approached him that day
around 11:00 a.m. In the meantime, Woods wanted money for dope that he had gotten
had attempted to pawn a DVD player to about a month before. Woods then went
get money to pay for the crack. Accord- to the cabinet shop for a while and later
ing to Garrett, the last time he saw Woods returned to Sullivan’s house where Sullithat day was on the porch of Sullivan's van and Julie were sitting on the porch
house; the three men who had been talk- with the three black men in the yard,
ing to Woods that morning were sitting in Woods allegedly told them that Garrett
the front yard.
would come over to pay them at three
Garrett testified to his knowledge of Jul- o’clock. Woods admitted to having a knife
ie’s substance abuse problems, and he stat- in his pants, so he would have something
ed that Woods had told him that Julie was to scare the men in case he ran into them
clean until two or three weeks before the when he went to talk to Julie.
murder. He denied knowing that Woods
On Wood’s second trip to Sullivan’s, Alhad been on a two-or-three-day binge of britton and Wyman drove up, and everydrinking and smoking crack prior to the one was in the house by the time Woods
murder. However, he indicated he was arrived, except for the three black men
aware that the area around Bailey Street wh0 were still outside sitting in chairs,
was an area where drugs were sold on a Sullivan allegedly came out of the house
regular- basis.
and bought dope from one of the black
Richard Woods testified in his own de- men and went back into the house. Woods
fense. Woods testified that he was aware claimed that he asked Sullivan, if he would
of Julie’s drug dependency problem before ask Julie if she would talk to him. Next,
they married. He admitted that he had Wyman came out of the house, but was
had a drug dependency problem also, but called back in by Albritton who told him

Appendix A, 7a

r

STATE v. WOODS
Cite OS 942 So.2d 6SS (La.App. 2 Clr. 2006)

that Sullivan said that they could smoke
the dope in the house. When Woods came
into the house, he tried to persuade her to
leave. Wyman allegedly asked Sullivan if
he wanted him to get Woods. Woods admitted getting excited and yelling while
talking to Julie and stated that Albritton
told him that he needed to quiet down,
Julie ligthen got up and told Woods to
leave her alone and went into the kitchen
with Woods following her. Julie then left
the kitchen and sat back down on the
couch, but then jumped up and went to
Sullivan’s bedroom. Again, Woods followed her and tried to persuade her to
come home.
Sullivan told Woods he needed to leave,
and Woods then told Sullivan that he
wanted to know the truth about what was
going on between him and Julie, because
he was not “buying all that dope” without
getting something out of it. Julie then
allegedly stated, “I do what 1 have to do to
support my habit,” and Woods then left
the bedroom, told her there would be a
divorce, and told her not to call his job
anymore. At this point, Wyman allegedly
jumped up and grabbed Woods, who then
struck him in the face and knocked him
back down into his chair. Woods claimed
that Sullivan then grabbed and held him
while Wyman approached with something
in his hand. Woods said he then grabbed
the knife and cut Wyman’s face. Sullivan
purportedly “fell into” the knife when he
had Woods by the throat and Woods
stabbed at Sullivan to get Sullivan off of
him. Woods said he then “saw a foot come
up” and he slashed at tire foot, Woods
then recognized that he had cut Julie on
the back of her leg. Woods asserted that
he was trying to look at the cut when Julie
allegedly “leaned back on the knife and the
knife was in her and I was trying to get it
out of her and it wouldn’t come out and
then I pulled it out she was bleeding....”

La. 665

On cross-examination Woods’ only expla­
nation for how Julie received the other
cuts was that they occurred when he was
swinging the knife. He said that he did
not realize who or what he was cutting,
He | ^testified that about a month before
he had given Julie crack and smoked it
with her, but that his intent was to get her
away from Sullivan’s house. He also admitted that during the three days prior to
the killing he had been drinking and smoking crack. He also admitted that during
this period of time he was getting angry at
Julie, because she had promised that she
was not going to return to Sullivan’s. Significantly, Woods admitted that someone
had told him that night before the killing
that Julie had offered to sell herself to a
man in order to get crack and that Woods
had later told Deputy Sams that after
hearing this his heart was pounding and he
was hurt. Woods also had admitted that
the same night he had told Garrett’s sonin-law as “a joke” that he had stabbed
Julie.
DISCUSSION
Sufficiency of Evidence
[1] The defendant argues that the
State’s evidence was insufficient in two
ways: (1) the State failed to prove beyond
a reasonable doubt that Woods had a speCific intent to kill Julie Woods; and (2)
while the mitigating factors of heat of
blood or sudden passion were proven by
preponderance of the evidence, the State
failed to rebut these factors. The defense
points out that Richard and Julie Woods
were having problems concerning her drug
use, and the defense asserts that James
Sullivan and his home facilitated her addiction. The defense also argues that when
Woods was talking with Julie about leaving, there was no physical contact until the
others intervened and escalated the situation. According to the defense, this shows

Appendix A, 8a

f

666 La.

942 SOUTHERN REPORTER, 2d SERIES

that there was no specific intent to kill, but pointed out that Woods himself admitted
that what happened was an impulsive, to smoking crack and drinking over a
unplanned act in the sudden heat of three-day period prior to the lolling, that
blood or passion. Additionally, the de- he was mad with his wife for returning to
fense argues that whether or not Wyman Sullivan’s house, that he was upset because
had a weapon is irrelevant, as Woods per- he had heard that she was selling herself
ceived himself to be under attack from for crack, and that on the night before the
Wyman, a larger man, thus “raising his murder he “joked” that he had stabbed his
heat of blood.” Finally, the defense ar­ wife. Thus, the State argues that the
gues that despite Sullivan’s and others’ evidence presented supports the jury’s
denials that they were using drugs in the verdict of second degree murder, and that
house, Julie s cocaine level was very high the defendant failed to prove by a preponat the time of her death and, when consid­ derance of the evidence the presence Of
ering the facts in the light most favorable mitigatory factors that would entitle him
to the State, no rational trier of fact could to the responsive verdict of manslaughter.
have found that the mitigating factors
[2-4] . The provisions of La. R.S. 14:30.1
were not established by a preponderance
of the evidence. Accordingly, the de- state in pertinent part that second degree
fense’s position is that the State only murder is the killing of a human being
proved manslaughter.
when the offender has a specific intent to
On the other hand, the State argues that ^ or
£reak bodily harm. Specif­
the jury obviously chose to believe the ic intent is that state of mind that exists
testimony of Wyman, Albritton and Sulli­ when the circumstances indicate the ofvan, who were eyewitnesses to Wood’s un- fender actively desired the proscribed
provoked brutal attack on the unarmed criminal consequences to follow his act.
victim. The State points out that accord- La. R.S. 14:10(1); State v. McCray, 621
tag to Wyman, Woods approached Sullivan So.2d 94 (La.App. 2d Cir.1993). Specific
as if he wanted to jump on him, and then bitent ^ a state of mind and need not be
Wyman stood between the two to prevent proved as a fact. It may be inferred from
an altercation. At that point, Woods pro- the circumstances of the transaction and
duced a knife and cut Wyman from his ear the actions of the defendant. State v. Gra­
ta his mouth. After Wyman helped Albrit- ham, 420 S0.2d 1126 (La.1982). The de­
ton get away, he noticed that Sullivan had termination of whether the requisite intent
been cut, and he observed Woods in the is present in a criminal case is for the trier
bedroom attacking Julie with a knife, using of fact. State v. Hv.is.ar, 414 So.2d 741
a slashing motion at least fifteen times (La.1982); State v. Dean, 528 So.2d 679
upon the victim. The State points out that (La.App. 2d Cir.1988). In reviewing the
Albritton’s testimony corroborated Wy- correctness of such a determination, the
man’s testimony, and that Sullivan had court should review the evidence in the
testified he asked Woods four or five times light most favorable to the prosecution and
to leave. Furthermore, Sullivan testified must determine whether the evidence j inis
that he never had a weapon during the sufficient to convince a reasonable trier of
attack. The State also noted Dr. Peretti’s fact of the guilt of the defendant beyond a
testimony concerning the multiple Wounds reasonable doubt as to every element of
that caused the victim to bleed tolmdeath the offense. Jackson v. Virginia, 443 U.S.
and his testimony that the wounds u>ere 307, 99 S.Ct. 2081, 61 L.Ed.2d 560 (1979);
intentionally inflicted. Finally, the State State v. Huizar, supra

Appendix A, 9a

r

r

STATE v. WOODS

La. 667

Cite as 942 So.2d 658 (I.a.App. 2 Clr. 2006)

In contrast, one definition of manslaugh­
ter under La. R.S. 14:31(A)(1) is a homi­
cide which would be murder under either
Section 30 (first degree murder) or Section
30.1 (second degree murder), but the of­
fense is committed in sudden passion or
heat of blood immediately caused by prov­
ocation sufficient to deprive an average
person of his self-control and cool reflec­
tion. Provocation shall not reduce a homi­
cide to manslaughter if the jury finds that
an offender’s blood had actually cooled, or
that an average person’s blood would have
cooled, at the time the offense was commit­
ted.
The evidence in the record is sufficient
to support the defendant’s conviction for
second degree murder. As pointed out by
the State, the testimony of Wyman, Albrit­
ton, and Sullivan indicates that Woods was
not provoked by anyone in the Sullivan
home into committing the crimes. These
witnesses all indicated that Woods was
confronted about his behavior and was
asked to leave, that Julie Woods did not
agree to leave with her husband, that
Woods was the aggressor, and that the
actions of the others present were defen­
sive. Woods himself admitted to becoming
excited and loud while talking to his wife.
The dispute as to whether Wyman armed
himself should be resolved in the light
most favorable to the prosecution. Fur­
thermore, there is Woods’ admission that
he was angry on the night | ^before the
crime, and that he even “joked" that he
had stabbed his wife, Additionally, there
is no dispute that he had armed himself
with a knife before going to Sullivan’s
house, even though he claimed it was for
protection against drug dealers.
Considering all the evidence in the light
most favorable to the prosecution, the jury
easily could have concluded that Woods
had the specific intent to stab his wife with
a knife if she refused to return home with

him from Sullivan’s house. Furthermore,
when viewing the evidence in the light
most favorable to the prosecution, the jury
also could have reasonably concluded that
Woods failed to establish that the killing
was committed in sudden passion or heat
of blood immediately caused by provoca­
tion sufficient to deprive an average per­
son of his self-control and cool reflection.
Woods had been angry at his wife the
night before the killing, rather than first
becoming angry immediately before the
attacks. Even if a jury might have consid­
ered Woods’ knowledge of his wife’s al­
leged offer to sell herself for crack as
being sufficient to deprive an average per­
son of self-control, the jury also reasonably
could have concluded that he regained his
self-control by the next day.
Excessive Sentence
[5] The defendant argues that he re­
ceived an excessive sentence on count two,
the aggravated battery of Keith Wyman
for which Woods was sentenced to 10
years at hard labor. Woods asserts that
he had no felony convictions and no history
of violent crime, that Wyman’s injury was
not life threatening, and that Wyman’s
actions and interference with Woods’
|i(imarriage precipitated the incident, Ac­
cording to Woods, a sentence in the mid­
range or on the lower side, rather than the
maximum, would have been more appro­
priate.
In contrast, the State points out that the
trial court has broad discretion to sentence
within the statutory limits, and that this is
particularly true when the offense involves
violence against the victim’s person. The
State notes that Woods was an uninvited
guest who was asked to leave on several
occasions, that he introduced a weapon
into the encounter where no one else was
armed, that Woods did not know Wyman,
who had stepped in to prevent an altercation, and that Wyman needed 79 stitches
as a result of the cut which severed his

Appendix A, 10a

r
6(58 La.

/

/

942 SOUTHERN REPORTER, 2d SERIES

saliva gland, tendon, and muscles, results
ing in Wyman suffering from occasional
dry mouth and permanent disfigurement,
The State also points out that the trial
judge sentenced Woods to far less than the
maximum on the attempted manslaughter
involving Sullivan and that the trial judge
took the overall circumstances of the defendant’s actions into account when he sentenced Woods on the aggravated battery
count Additionally, the State points out
that the trial judge noted the defendant’s
abuse of alcohol and drugs, and that the
defendant had admitted at trial that he
spent three days prior to the victim’s
death drinking and consuming cocaine.
Finally, the State argues that it is obvious
from the sentence imposed that the mitigating factors were taken into consideration, that the trial court referred to the
defendant's testimony indicating how much
he loved the victim, and that the court had
received letters on the defendant’s behalf,
ligUnder the provisions of La. R.S. 14:34,
aggravated battery is a battery committed
with a dangerous weapon. Whoever commits an aggravated battery shall be fined
not more than five thousand dollars,.imprisoned with or without hard labor for not
more than ten years, or both.

for the sentence imposed, remand is unnecessary even where there has not been
full compliance with La, C. Cr. P. art.
894.1. State v. Lanclos, 419 So.2d 475
(La.1982); State v. Hampton, 38,017 (La.
App.2d Cir.1/28/04), 865 So.2d 284, writs
denied, 2004-0834 (La.3/11/05), 896 So.2d
57 and 2004-2380 (La.6/3/05), 903 So.2d
452. The important elements which
should be considered are the defendant’s
personal history (age, family ties, marital
status, health, employment record), prior
criminal record, seriousness of the offense,
and the likelihood of rehabilitation. State
v- Jones, 398 So.2d 1049 (La.1981); State
v- Haley, 38,258 (La.App.2d Cir.04722/04),
8^3 So.2d 747, wnt denied, 2004-2606
(La.0G/24/05), 904 So.2d 728.
[10,11] |ayA sentence violates La.
Const, art 1, § 20 if it is grossly out of
proportion to the seriousness of the offense or nothing more than a purposeless
and needless infliction of pain and sufferState v. Smith, 2001-2574
mg.
(La.1/14/03), 839 So.2d 1; State v. Dorthey,
623 So.2d 1276 (La.1993); State v. Bonann0‘ 384 So.2d 355 (La.1980). A sentence is
considered grossly disproportionate if,
w]ien the crime and punishment are
viewed in light of the harm done to society,
it shocks the sense of justice. State v.
[6-9] The test imposed by the review­ Weaver, 2001-0467 (La.1/15/02), 805 So.2d
ing court in determining the excessiveness 166; State v. Lobato, 603 So.2d 739 (La.
of a sentence is two-pronged. First, the 1992); State v. Hogan, 480 So.2d 288 (La.
record must show that the trial court took 1985); State v. Bradford 29,519 (La,
cognizance of the criteria set forth in La, App.2d Cir.4/2/97), 691 So.2d 864.
C. Cr. P. art. 894.1. The trial judge is not
[12,13] The trial court has broad dis­
required to list every aggravating or miti­
gating circumstance so long as the record cretion to sentence within the statutory
reflects that he adequately considered the hm’ts. State v. Black, 28,100 (La.App.2d
guidelines of the article. State v. Smith, Cir.2/28/96), 669 So.2d 667, writ denied
433 So.2d 688 (La.1983); State v. Dwrn, 96-0836 (La.9/20/96), 679 So.2d 430. Ab30,767 (La.App.2d Cir.6/24/98), 715 So.2d sent a showing of manifest abuse of that
641. The articulation of the factual basis discretion, we may not set aside a sentence
for a sentence is the goal of La, C. Cr. P. as excessive. State v. Guzman, 99-1528,
art. 894.1, not rigid or mechanical compli­ 99-1753 (La.5/16/00), 769 So,2d 1158.
ance with its provisions. Where the rec­
[14] As a general rule, maximum or
ord clearly shows an adequate factual basis near maximum sentences are reserved for

Appendix A, 11a

r

!

BECK v. SCHRUM

La. 669

Cite ns 942 So.2d 669 (La.App. 2 Clr. 2006)

the worst offenders and the worst offenses.
State v. Robinson, 36,147 (La.App.2d
Cir.12/11/02), 833 So.2d 1207; State v.
Adger, 35,111 (La.App.2d 9/26/01) 797
So.2d 146.
Contrary to appellant counsel’s argu­
ments, the sentencing transcript clearly
shows that the trial judge did adequately
comply with Article 894.1 and provide a
factual basis for the sentence imposed for
aggravated battery. The trial judge con­
sidered Wood’s criminal history, his alco­
hol and drug [^problems, and the letters
submitted on Woods' behalf. Furthermore, although the trial judge initially in­
dicated that he was going to sentence
Woods on the two lesser offenses without
regard to the homicide, when Woods’ coun­
sel asked for reconsideration because
Woods received the maximum sentence on
the aggravated battery, the trial judge
stated “this is one instance where I’m not
consistent in what 1 say.” The judge then
indicated he was imposing the maximum
sentence. for the aggravated battery "because I consider the fact the same conduct
resulted in the death of his wife.”
Next, w>e note that Woods initially was
charged with attempted second degree
murder of Wyman, but the jury returned
the verdict of aggravated battery instead.
Furthermore, this particular aggravated
battery falls within the category of the
worst offenses because it was part of a
criminal incident in which another individual was murdered and a third nearly died.

41,647 (La.App. 2 Cir. 11/1/06)
Charles Thomas BECK, Jr.,
Plaintiff-Appellant,
v.
Jeff SCHRUM, Carol Newsom, and Lou­
isiana Farm Bureau Casualty Insur­
ance Company, Defendants-Appellees,
No. 41,647-CA.
Court of Appeal of Louisiana,
Second Circuit.
Nov. 1, 2006.
Background: Guest, who was shot by
property owner’s boyfriend, brought negli­
gence action against property owner, boyfriend, and property owner’s homeowners’
insurer. Following a hearing, the TwentySixth Judicial District Court, Parish of
Webster, No. 65339, John Robinson, J.,
granted summary judgment in favor of
property owner and insurer. Guest appealed.
Holding: The Court of Appeal, Gaskins,
J., held that property owner owed no duty
to protect guest against boyfriend or to
control actions of boyfriend,
Affirmed.
Brown, C.J., concurred in part, dissented
in part, and assigned reasons.

1. Negligence <^=1019
Weapons ®=19

CONCLUSION
Homeowner owed no duty to protect
For the reasons expressed more fully
above, we affirm the defendant’s convic- guest against homeowner’s boyfriend or to
control actions of boyfriend, who shot
tions and sentences.
guest while guest was in homeowner's resi­
AFFIRMED.
dence visiting homeowner’s son, although
Sv\
boyfriend
had previously displayed gun to
(O |H»HUMBI«SySUM>
VS S
guests; there was no special relationship
between homeowner and boyfriend that

Appendix A, 12a

r.

494 La.

t

959 SOUTHERN REPORTER, 2d SERIES
1

2006-2752 (La. 6/22/07)
STATE of Louisiana

Court of Appeal, Second Circuit, No. 41,420-KA.
Denied.

V.

Co | KEY NUMBER SYSTEM)
V. a

Angelo MITCHELL.
No, 2006-K-2752,
3

Supreme Court of Louisiana.
June 22, 2007.

2006-2779 (La. 6/22/07)
STATE of Louisiana

Prior report: La.App., 941 So.2d 200.

v.

In re Mitchell, Angelo;—Defendant; Ap­
plying for Writ of Certiorari and/or Re­
view, Parish of E. Baton Rouge, 19th Judi­
cial District Court Div. G, No. 6-03-620;
to the Court of Appeal, First Circuit, No.
2006 KA 0417.

Johnny Elion RUFFINS, III.
No. 2006-K-2779.
Supreme Court of Louisiana.
June 22, 2007.
Prior report: La.App., 940 So.2d 45.

Denied.
(o Ikey number system)
'll

2

2006-2768 (La. 6/22/07)

In re Ruffins, Johnny Elron III;—De­
fendant; Applying for Writ of Certiorari
and/or Review, Parish of Caddo, 1st Judi­
cial District Court Div. C, No. 235,147; to
the Court of Appeal, Second Circuit, No.
41,033-KA.
Denied.
/yw\________
(o I KEY NUMBER SYSTEM)

STATE of Louisiana
v.
Richard B. WOODS.

4

No. 2006-KO-2768.

2006-2781 (La. 6/22/07)
STATE of Louisiana

Supreme Court of Louisiana.

v.
June 22, 2007.

Richard B. WOODS.

Prior report: La.App., 942 So.2d 658.

No. 2006-K-2781.

In re Woods, Richard Ben;—Defendant;
Applying for Writ of Certiorari and/or Re­
view, Parish of Ouachita, 4th Judicial Dis­
trict Court Div. G, No. 04F2043; to the

Supreme Court of Louisiana.
June 22, 2007.
Prior report: La.App., 942 So.2d 658.

Appendix 8, 13a

r"

f

State v. Woods, 291 So.3d 222 (2020)
2019-01198"(La3/9/20)'.

’

291 80.3d 222 (Mem)
Supreme Court of Louisiana.
STATE of Louisiana
v.
Richard B. WOODS
No. 2019-KH-01198
03/09/2020
ON SUPERVISORY WRIT TO THE 4TH JUDICIAL
DISTRICT COURT, PARISH OF OUACHITA

JOHNSON, C.J., would grant and remand and assigns
reasons.
I would grant this writ application and remand to the district
court with instructions to stay the relator's application for
post-conviction relief until the United States Supreme Court
issues its ruling in the case of Ramos v. Louisiana,---- U.S.
------, 139 S.Ct. 1318, 203 L.Ed.2d 563, (2019).
All Citations
291 So.3d 222 (Mem), 2019-01198 (La. 3/9/20)

Opinion
*1 Writ denied.
End of Document

©2020 Thomson Reuters. No claim to original U.S. Government Works,

V/EMLAW © 2020 Thomson Reuters. No claim in orip'nai U.S. Government Worn.

Appendix D) 16a

